          Office of Audits
          Office of Inspector General
          U.S. General Services Administration




          Alert Report: Limited Scope Audit of Invalid
          Obligations and Contingency Funding for Recovery
          Act Projects
          Report Number A120174/P/R/W13001
          October 24, 2012




A120174/P/R/W13001
               Office of Audits
               Office of Inspector General
               U.S. General Services Administration


 DATE:            October 24, 2012
 TO:              Daniel M. Tangherlini
                  Acting Administrator, General Services Administration (A)

                  Dorothy Robyn
                  Commissioner, Public Buildings Service (P)

                  Gary Grippo
                  Acting Chief Financial Officer, General Services Administration (B)


                  Signature of R. Nicholas Goco
 FROM:            R. Nicholas Goco
                  Deputy Assistant Inspector General for Real Property Audits (JA-R)
 SUBJECT:         Alert Report: Limited Scope Audit of Invalid Obligations and
                  Contingency Funding for Recovery Act Projects
                  Report Number A120174/P/R/W13001

As part of our oversight of the General Services Administration’s (GSA) American
Recovery and Reinvestment Act (Recovery Act) projects, we identified an issue that
warrants your attention. With the potential rescission of Recovery Act funds during the
fiscal year 2011 budget impasse, the GSA Public Buildings Service (PBS) issued
contract modifications to preserve project contingency funds.            However, these
modifications did not definitize work to be performed, and, therefore, did not create valid
obligations. To the extent that funds were not validly obligated prior to their expiration
on September 30, 2011, GSA’s Recovery Act reporting has been inaccurate. Further,
the funds are scheduled to be rescinded on December 31, 2012.

PBS created invalid obligations of Recovery Act funds to preserve funds for
contingencies.

Funding for construction projects typically includes contingency funds to cover
unforeseen conditions, design deficiencies, and other changes during the life of the
project. PBS construction funds are usually available to pay for these contingencies for
the life of the project. However, the Recovery Act funding was time limited and had to
be obligated by September 30, 2011.




A120174/P/R/W13001                                1
During the fiscal year 2011 budget impasse, PBS was at risk of losing these project
contingency funds due to the potential rescission of all unobligated Recovery Act funds.
As a result, PBS management encouraged project teams to obligate all available
Recovery Act funds.        In response, some PBS project teams issued contract
modifications that were insufficient to create valid obligations because the work was not
properly definitized. In some of these cases, it is apparent that project teams issued
invalid contract modifications to preserve the Recovery Act funding for future project
contingencies, subsequently drawing funds as needed for activities often unrelated to
those described in the modifications.

PBS’s efforts to safeguard project funding are illustrated by an “Adjudication Fact
Sheet” 1 template that was circulated in July 2011 by the PBS Office of Design and
Construction. An excerpt from this template, which was disseminated to all Design and
Construction Directors and Regional Recovery Executives, 2 is shown below. Similar
documents were found in multiple project files.

    On February 28, 2011, the budget impasse of 2011 included a threat of
    rescission of all unobligated funds authorized under the American Recovery and
    Reinvestment Act of 2009 (ARRA). Though the rescission ultimately did not
    occur, the Office of Design and Construction considered the risk as high and
    would likely be added to one of the numerous Continuing Resolutions enacted to
    maintain operation of the federal government. As such contingency funds for
    unforeseen conditions and omissions would be rescinded, leaving
    projects…deficient in funds. In the face of rescinded funds, the project would
    either not be able to be completed or in violation of the Anti Deficiency Act.

    At the direction of the Office of Design and Construction, with support of the
    Office of General Counsel, projects funded under ARRA were to be obligated in
    [total], leaving a project balance of zero. Project Contracting Officers consulted
    with Regional Counsel for guidance on proceeding while maintaining full
    compliance under applicable Federal Acquisition Regulations (FAR) and General
    Services Acquisition Manual (GSAM).

    The guidance received from regional counsel required bona fide need work items
    to be identified, preparation of detailed government estimates, contractor
    proposals, pre-negotiation positions, negotiations and award of a contract
    modification. Notice to Proceed (NTP) would be withheld. Scope identified for
    contingency obligation includes planned scope revisions that were planned to be
    negotiated and awarded consistent with the planned value curve established for
    the project and reported through the Project Information Portal (PIP).
    Modifications to the construction contract were issued on April 2011 in scope
    items that will be de-obligated and re-obligated as additional changes occur.

1
  Adjudication Fact Sheets are used to request adjustments in project performance measures after the
projects have been identified as over budget or behind schedule. In this case, projects appeared to be
over budget because contingencies were obligated prior to the end of fiscal year 2011.
2
  Regional Recovery Executives received the template via email on August 31, 2011.


A120174/P/R/W13001                               2
While these contract modifications were supposed to meet FAR and GSAM
documentation requirements, the above narrative indicates the intent was to preserve
the funding so that it could later be deobligated and reobligated for use on contingency
items, rather than to perform the work described in the contract modifications. To
create a valid obligation, the Government must incur a legal liability to pay for goods or
services ordered or received; or a legal duty that could mature into a legal liability
without Government action. The contract modification must clearly establish the parties’
rights and duties; it must include a specific, definite description of the goods and
services to be provided. Although PBS can modify a contract for a bona fide need and
not proceed until a later date or create a valid obligation with a unilateral modification,
the evidence here shows that PBS did not create a legal liability. The Government was
not obligated to pay for specific goods or services at any given price.

Below are four examples where PBS issued contract modifications that did not create
valid obligations. In each case, PBS awarded the contract modification; however, the
modifications were not definitized and additional contract modifications were needed to
definitize the work and/or redistribute the funds for other work. Since these obligations
were invalid, any unused funding expired on September 30, 2011. Expired funds have
limited usage for proper upward adjustments. At this point, we have not evaluated
whether the portion of the expired funds utilized to date were properly used for upward
adjustments. Accordingly, each example below only addresses the amounts that have
not been used to date.

      •   Peter Rodino Federal Building Modernization
          On March 9, 2011, PBS Region 2 issued Modification PC16 to Contract Number
          GS02P09DTC0018 for abatement in the amount of $654,827 as a unilateral
          change order to be negotiated at a later date. The contractor submitted its initial
          proposal for the work on October 3, 2011. On March 26, 2012, PBS Region 2
          issued Modification PS71 that definitized Modification PC16 for $296,243 and
          deobligated the remaining $358,584.

          Modification PC16 appears to be for a bona fide need; however, it did not create
          a valid obligation because contractor pricing was not established and, as shown
          by the year that passed before the work was definitized, there was no urgency to
          proceed. The FAR requires that all contract modifications, including change
          orders, be priced before they are executed unless doing so would adversely
          affect the interests of the Government. 3 Similarly, GSAM states that the
          Government can order a contractor to proceed with work on a Price-to-be-
          Determined-Later (PDL) basis if the contracting officer determines that it is in the
          best interests of the Government that the contractor proceeds before negotiation
          of an equitable adjustment is completed. However, in this case, project records
          indicate that as of August 2012, the work still had not begun, so there was no
          need for a PDL.



3
    FAR 43.102 (b)


A120174/P/R/W13001                            3
        Modification PC16 did not result in an obligation of funds because there was no
        definitized agreement with the contractor at that time concerning the price and
        there would have been no adverse impact on the Government from not issuing
        the modification. As a result, all $654,827 of Recovery Act funding expired on
        September 30, 2011, which includes the $358,584 recorded as “deobligated.”

    •   Lafayette (Phase 1) Modernization
        On March 17, 2011, PBS Region 11 issued Modification PC09 for $5.4 million to
        Contract Number GS11P10MKC0061 for new building systems, hazardous
        material abatement, demolition of existing building systems, etc., on a PDL basis
        and future definitization through contract modifications. Between June 8, 2011,
        and October 1, 2011, PBS Region 11 issued 13 contract modifications totaling
        $1,023,794 to definitize and price the work. Since October 1, 2011, PBS has
        definitized an additional $822,852 through 51 modifications leaving $3,553,354 of
        funding on the original modification.

        As stated in the description above, the modification was not definitized at the
        time it was awarded and no pricing was established. As such, GSA’s obligation
        of these funds was invalid, both because of the lack of pricing and because of the
        lack of specificity regarding the work to be performed.

        Modification PC09 resulted in an invalid obligation as it did not create a legal
        liability for GSA. As such, $4,376,206 expired on September 30, 2011, and of
        that amount, $3,553,354 remains unused and expired.

    •   Grand Junction Federal Building - Courthouse
        On March 9, 2011, PBS Region 8 issued Modification PC04 to Contract Number
        GS08P10JBC0032, which included $462,247 for all work to design and construct
        additional Photovoltaic (PV) canopy and panels under Item Number 20.
        Subsequently, on May 24, 2011, PBS Region 8 issued Modification PS05 to
        definitize Modification PC04 and increased the cost for the PV work to $581,739.
        Then prior to October 1, 2011, PBS Region 8 issued a contract modification to
        reduce $17,231 in funding from the PV work and used it for the replacement of
        sprinkler heads and installation of conduit runs. Additionally, since October 1,
        2011, PBS Region 8 issued two modifications that reduced the funds for the PV
        work by an additional $140,461 for other work including design concepts of a
        lobby and bathrooms and the design and installation of a fire alarm system,
        leaving $424,047 of funding on the PV work. 4

        The contract modification for the PV work includes a scope of work, an
        independent government estimate, and a negotiation memorandum. However,
        the specifications in the scope of work were deficient, essentially stating that the
        contractor is to design and construct a canopy and PV panels to increase the
        output by 14kw. Additionally, the scope of work included a requirement to
4
  During fieldwork, another modification to reduce the PV funding by $125,931 for terrazzo patching, light
fixtures, and other work was pending.


A120174/P/R/W13001                                 4
      complete the work within 120 days; however, according to project records, the
      contractor has not performed any of the PV work on the modification and all of
      the PV work, from design through installation, has been scheduled to be
      performed in a single day. The work was not adequately definitized and hence
      did not create a valid obligation. In addition, the project used an Adjudication Fact
      Sheet with wording similar to that shown above. These factors, along with the
      incremental use of the funding for other purposes, indicate that this is actually a
      contingency fund.

      Because Modification PC04 lacked specificity, it did not create a legal liability and
      therefore constitutes an invalid obligation. The $564,508 that was unspent as of
      October 1, 2011, expired at that time. Of that amount, $424,047 remains unused
      and expired.

  •   Yuma U.S. Courthouse
      On April 8, 2011, PBS Region 9 issued Modification PS06 to Contract Number
      GS09P10KTC0045 for $915,575 for 221 additional PV panels under Item
      Number 0017. From October 2011 through June 2012, PBS Region 9 has
      issued 10 modifications that reduced the funds for the PV work by $374,251 and
      transferred the funding to other modifications for additional work including
      boulders and a “ram wall,” webcam software, relocation of a power pole, and a
      construction easement. In March 2012, PBS Region 9 did use $116,623 for
      additional PV panels; however, it was due to an upgrade to the PV panels called
      for in the base contract because the original panels were no longer
      manufactured. After deducting this amount, $424,701 remains of the funding for
      the original PV work.

      The contract modification for the PV work includes an independent government
      estimate, a contractor proposal, and a negotiation memorandum; however the
      modification was not definitized. In addition, the contract modification restricted
      the contractor from moving forward on the work. The project also used an
      Adjudication Fact Sheet with wording similar to that discussed above.
      Additionally, the incremental deobligation of the funding for the PV canopy for
      other purposes indicates that this modification was to provide for contingency
      funding.

      The modification amounts to an invalid obligation because it was not definitized
      and did not create a legal liability for GSA. Accordingly, all $915,575 of funds
      expired on September 30, 2011. Of that amount, $424,701 remains unused and
      expired.




A120174/P/R/W13001                         5
Conclusion

We previously identified the issue of contingency funding as an implementation
challenge for GSA management in 2009 after the Recovery Act was enacted. 5 In
September 2011, upon finding invalid obligations where the modifications were not
definitized and GSA was in effect creating contingency funds, we recommended that
PBS review contract modifications to identify similar instances in which project
contingency funds were invalidly obligated. 6 However, PBS’s efforts appear to have
been ineffective in addressing the issue.

At this point, the full extent of the problem is unknown; however, as a result of the
invalid obligations, GSA’s reporting on the use of its Recovery Act funds to the Office of
Management and Budget (OMB) is inaccurate. For example, PBS reported the $5.4
million contract modification for the Lafayette project to OMB as an obligation when it
was awarded and has included the amount in its total funds obligated calculations.
However, since the funds were never validly obligated and a significant amount expired
on September 30, 2011, these reports are inaccurate and OMB should be notified.

Further, any intent to use the invalid obligations to preserve funding for future
contingencies is a misuse of the deobligation and reobligation authorities provided by
the Recovery Act.

As a result of PBS’s actions in issuing these contract modifications, the associated
Recovery Act funding was invalidly obligated and has now expired and should be
rescinded on December 31, 2012. If no action is taken, PBS risks using the rescinded
funding and violating applicable federal laws and regulations.

Recommendations

We recommend that the Acting Administrator, PBS Commissioner, and Acting Chief
Financial Officer:

    1. Take corrective action to identify all invalid obligations, deobligations, and
       reobligations of Recovery Act funding and ensure that those funds are used
       appropriately.

    2. Notify the Office of Management and Budget that Recovery Act funds have been
       invalidly obligated and that past reporting of obligations has been inaccurate.

    3. Notify Congressional committees with jurisdiction as appropriate.


5
  Oversight of the American Recovery and Reinvestment Act of 2009: GSA’s Implementation Challenges,
dated August 6, 2009.
6
  Recovery Act Report: Improper Obligation of Construction Contingency Funds; Review of PBS’s Major
Construction and Modernization Projects Funded by the American Recovery and Reinvestment Act of
2009, Audit Report Number A090172/P/R/R11016 dated September 30, 2011.


A120174/P/R/W13001                             6
Management Comments

In its response dated October 12, 2012, GSA disagreed with the report’s findings and
conclusions for all but one example. GSA did agree to treat the funding for all four
examples as expired funds and to perform a review to identify modifications with funding
concerns, reserving the right to reach a contrary conclusion in cases similar to the
examples in this report. See Appendix B.

OIG Response

The OIG reaffirms its conclusions and findings. The contract modifications cited in the
report did not result in valid obligations and subsequently the funding expired on
September 30, 2011. GSA needs to take corrective action to identify its invalid
obligations and ensure the funds are used appropriately. We have addressed specific
comments made by GSA in Appendix C.




A120174/P/R/W13001                        7
Appendix A – Purpose, Scope, and Methodology
Background

The American Recovery and Reinvestment Act of 2009 (Recovery Act) provided the
General Services Administration (GSA) with $5.55 billion to convert federal buildings
into High-Performance Green Buildings as well as to construct federal buildings,
courthouses, and land ports of entry. The Recovery Act mandated that $5 billion of the
funds be obligated by September 30, 2010, and that the remaining funds be obligated
by September 30, 2011. Additionally, the Recovery Act gave GSA the ability to
deobligate project “savings” or funds that could not be used for the activity for which
originally obligated. GSA may reobligate these funds for use on other Recovery Act
projects with appropriate notice to Congress.

During the budget impasse of 2011, Congress considered repealing the Recovery Act.
The House of Representatives passed H.R.1 on February 19, 2011, which would have
rescinded all unobligated balances remaining under the Recovery Act. Since the
rescission did not pass, any unobligated Recovery Act funds expired on September 30,
2011, and are scheduled for rescission on December 31, 2012. 1 Between the
expiration and rescission of the funds, GSA may have limited use of these funds for
proper upward adjustments for costs due to unforeseen site conditions and other
contingencies related to the performance of existing project scope.

Purpose

We initiated this audit to alert GSA management that Recovery Act funds were being
invalidly obligated on multiple projects through contract modifications being used for
contingency and, as a result, Recovery Act reporting has been inaccurate and the
invalidly obligated funds have expired and will be rescinded.

Scope

The audit scope included a limited examination of contract modifications on Recovery
Act funded projects.

Methodology

To accomplish our objectives, we:

      •   Reviewed prior audit work related to invalid obligations of Recovery Act funding;
      •   Reviewed and examined contract modifications and supporting documentation as
          well as other project records; and
      •   Held discussions with PBS personnel.


1
    Public Law 111-203, Dodd-Frank Wall Street Reform and Consumer Protection Act, Section 1306.


A120174/P/R/W13001                            A-1
Appendix A – Purpose, Scope, and Methodology, (cont.)

Except as noted below, we conducted the audit between August 2012 and September
2012 in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives.

This is a limited audit based on the information contained in this report. This audit was
initiated because we identified a specific issue needing management attention on
multiple projects under a separate audit. As a result, the planning for this audit was
limited to the steps necessary to assess the identified issue.

Internal Controls

Tests of internal controls were limited to ensuring the validity of specific contract
modifications.




A120174/P/R/W13001                     A-2
Appendix B – Management Comments




A120174/P/R/W13001    B-1
Appendix B – Management Comments, (cont.)




A120174/P/R/W13001     B-2
Appendix B – Management Comments, (cont.)




A120174/P/R/W13001     B-3
Appendix B – Management Comments, (cont.)




A120174/P/R/W13001     B-4
 Appendix C – OIG Response
In its comments, GSA disagreed with most of the OIG’s conclusions and findings,
reserving the right to reach a contrary conclusion in cases similar to the examples in this
report. The OIG reaffirms its conclusions and findings as stated in the report. In
response to GSA management’s comments, however, the OIG modified the report to
make it clearer that the findings of invalid obligations are based on the lack of adequate
documentation to justify the modifications, and that the other evidence – such as use of
the funds for contingencies – signals the intent and simply reinforces the conclusion.

GSA stated that the Adjudication Fact Sheet template does not indicate the intention to
preserve contingency funding. GSA maintains that program guidance was to comply
with applicable regulations, not to enter into improper obligations with the intent to later
deobligate and reobligate funding for later-defined needs. GSA further seems to
acknowledge, however, that there were problems with the accuracy or completeness of
some of the contract modification documents created to execute these business
decisions. The OIG report simply points out the facts, including the statements in the
Adjudication Fact Sheet. Those facts show that in the examples cited in the report the
intent was to create contingency funds.

With regard to the Rodino project, GSA states that the contract modification was proper
using the Price-to-be-Determined-Later approach with pricing supported by an
independent government estimate. To incur an obligation, the Government must incur a
legal liability to pay for specific goods or services to be provided. In this case, a legal
liability was not created as the contractor did not provide pricing for negotiation and
acceptance, nor was the work being performed as required for the Price-to-be-
Determined-Later approach. As such, this modification was insufficient to establish a
valid obligation.

With regard to the Grand Junction and Yuma projects, GSA maintains that these were
valid modifications. Among other things, GSA seems to conclude that the existence of
a scope of work, an IGE, and a negotiation memorandum by itself indicates the
modification is valid. The OIG did not take the existence of these documents as
conclusive evidence by itself, but rather looked at the content of those documents. GSA
also states that it does not believe “incremental deobligation of funding related to a
contract modification represents, per se, evidence of an improper obligation.”
However, nowhere in the report does the OIG make such a conclusion solely on that
information.     Rather, the OIG uses the fact that the funding was used for other
purposes as additional evidence that the intent was to preserve contingency funds.
Additional project information not cited in the report provides further support to these
conclusions. For example, on the Grand Junction project, historical preservation issues
likely precluded adding another photovoltaic canopy to the roof and on the Yuma
project, the Government Estimate/Justification memo uses a flawed cost effectiveness
evaluation to justify the project.




A120174/P/R/W13001                      C-1
 Appendix C – OIG Response, (cont.)

While GSA generally disagreed with the report findings and conclusions, the response
indicated that management would take corrective action and address the first report
recommendation. Per the response, GSA will hire a contractor to conduct a review to
identify additional funding concerns, but it reserves the right to reach contrary
conclusions regarding projects with similar circumstances as those cited in the report.
The OIG is concerned with both the extent of the review and the agency’s conclusions
during this review. The agency has identified only a portion of the review that is
needed. GSA should be taking the steps to identify all invalid obligations to ensure that
1) expired funds used between October 1, 2011 and December 31, 2012, are used only
for proper upward adjustments, and 2) no expired funds, including those reallocated
from other projects, will be used after December 31, 2012. The OIG also has concerns
regarding whether, in view of GSA’s position that three of the four examples cited in the
report were in fact valid obligations, GSA’s evaluation will identify all expired funds.
Therefore, the OIG intends to continue to review Recovery Act projects to identify any
additional occurrences of these issues.

GSA’s comments do not address the second or third report recommendations. We
reaffirm the recommendations that the Acting Administrator, PBS Commissioner, and
Acting Chief Financial Officer notify the Office of Management and Budget that
Recovery Act funds have been invalidly obligated and that past reporting of obligations
has been inaccurate; and notify Congressional committees with jurisdiction as
appropriate.




A120174/P/R/W13001                     C-2
 Appendix D – Report Distribution

Acting Administrator, GSA (A)

Commissioner, PBS (P)

Deputy Commissioner, PBS (P)

Regional Administrator (2A)

Regional Administrator (8A)

Regional Administrator (9A)

Regional Administrator (WA)

Regional Commissioner (2P)

Acting Regional Commissioner (8P)

Acting Regional Commissioner (9P)

Acting Regional Commissioner (WP)

Acting PBS Chief of Staff (PB)

Acting Director, PBS Executive Response (PR)

Senior Accountable Official for Recovery Act Activities (P)

National Program Office ARRA Executive (PCB)

Regional Recovery Executive (2PC)

Regional Recovery Executive (8PC)

Regional Recovery Executive (9P2)

Regional Recovery Executive (WPC)

Chief of Staff, PBS Office of Construction Programs (PCB)

Division Director, GAO/IG Audit Response Division (H1C)

Audit Liaison (BCP)


A120174/P/R/W13001                     D-1
 Appendix D – Report Distribution

Assistant IG for Auditing (JA)

Deputy Assistant IG for Investigations (JID)

Director, Audit Planning, Policy, and Operations Staff (JAO)

Director, Office of Internal Operations (JI-I)

Investigator, Office of Internal Operations (JI-I)




A120174/P/R/W13001                       D-2
